                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

     Case Number: 112020009                                                                       Page 1 of 1



I!            The investigation initiated from a referral from another agency. 1 The agency received an
i             allegation that a researcher2 from a university3 submitted duplicate research proposals to the
              agency4 and NSF.

              The agency provided a copy of the award proposal submitted by the researcher. The agency
            / requested we obtain the researcher's NSF proposal.

              We confirmed the researcher had an NSF award. 5 The researcher disclosed her agency award to
              NSF prior to the start of the NSF award.

              NSF-OIGand the agency reviewed the award proposals submitted by the researcher. NSF-OIG
              and agency reviews found the proposed research projects were different.

              The investigation did not substantiate the researcher received funding for duplicate research
              projects. Accordingly, this investigation is closed.




     NSF OIG Form 2 (11/02)
